No.

IN THE SUPREME COURT OF THE UNITED STATES

JUNE M. DOMINO, Ph. D., - PETITIONER

VS.
RESPONDENT(S)
PROOF OF SERVICE
I, JUNE M. DOMINO, do swear or declare that on this date, March 18, 2021,
As required by Supreme Court Rule 29 1 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party's counsel,
and on every other person required to be served, by depositing an envelope,
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
STATE OF CALIFORNIA DEPARTMENT OF JUSTICE
ATTEN: CAROLYN FRANK, ESQ
1300 I STREET
SUITE 125
SACRAMENTO, CALIFORNIA 94244-2550
I declare under penalty of perjury that\h£ foregoing is trueland correct.
Executed on March 18, 2021

21

No.

IN THE SUPREME COURT OF THE UNITED STATES

JUNE M. DOMINO, Ph. D., -PETITIONER

VS.
RESPONDENT(S)
PROOF OF SERVICE
I, JUNE M. DOMINO, do swear or declare that on this date, March 18, 2021,
As required by Supreme Court Rule 29 1 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party's counsel,
and on every other person required to be served, by depositing an envelope,
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
SUPREME COURT OF THE UNITED STATES
1 FIRST STREET NE
WASHINGTON DC 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 18, 2021

uaaj?

22

